          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Improper Management Intervention in
           Multiple Award Schedule Contracts
           Federal Supply Schedule 70 – Information
           Technology Contracts
           Federal Acquisition Service
           Report Number A120161/Q/6/P13003
           June 4, 2013




A120161/Q/6/P13003
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration


                                      REPORT ABSTRACT
                              Improper Management Intervention in Multiple Award Schedule
OBJECTIVE                     Contracts
The objective of this audit
                              Federal Supply Schedule 70 – Information Technology Contracts
was to review the
                              Federal Acquisition Service
circumstances related to      Report Number A120161/Q/6/P13003
FAS management                June 4, 2013
intervention in contracting
actions related to MAS        WHAT WE FOUND
contracts.
                              Finding - Improper Federal Acquisition Service (FAS) management
                              intervention in Multiple Award Schedule (MAS) contracts resulted in inflated
                              pricing and/or unfavorable contract terms, and undermined the authority of
                              contracting officers.
                              WHAT WE RECOMMEND
                              The Commissioner, FAS, should:

                              1. Ensure that the contracting process is independent and free from FAS
                                 management interference due to contractor pressure. These steps
                                 should include:
                                    a. Requiring FAS management not to intervene in contracting
                                        actions in response to requests from contractors except for
                                        instances of misconduct or other serious administrative issues;
                                    b. Requiring FAS management to fully document all conversations
                                        and correspondence with contractor officials regarding specific
                                        contracts and offers, to include such information as date, time,
                                        participants, and specific details of information exchanged; and
                                    c. Issuing a memorandum expressing support for contracting staff
                                        making independent determinations, including decisions to not
                                        award contracts or contract extensions.

                              2. Take appropriate action to either renegotiate or cancel the Carahsoft and
                                 Deloitte contracts.

                              3. Take appropriate administrative action to address the FAS management
Heartland Field Audit            and contracting staff conduct identified in this report.
Office (JA-6)
1500 E. Bannister Road,       MANAGEMENT COMMENTS
Room 2075                      The FAS Commissioner concurred with the recommendations.
Kansas City, MO 64131          Management’s written comments to the draft report are included in their
(816) 926-7052                 entirety as Appendix B.


      A120161/Q/6/P13003                            i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            June 4, 2013
 TO:              Thomas A. Sharpe, Jr.
                  Commissioner, Federal Acquisition Service (Q)

 FROM:            John F. Walsh
                  Regional Inspector General for Auditing
                  Heartland Field Audit Office (JA-6)
 SUBJECT:         Improper Management Intervention in Multiple Award Schedule
                  Contracts
                  Federal Supply Schedule 70 - Information Technology Contracts
                  Federal Acquisition Service
                  Report Number A120161/Q/6/P13003

This report presents the results of our audit of management intervention in Multiple
Award Schedule contracts. Our findings and recommendations are summarized in the
Report Abstract. Instructions regarding the audit resolution process can be found in the
email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

 Erin Priddy        Audit Manager        erin.priddy@gsaig.gov            816-926-8610
 Tracy Twombly      Auditor-In-Charge    tracy.twombly@gsaig.gov          816-926-8621

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120161/Q/6/P13003                          ii
Table of Contents
Introduction .............................................................................................................. 1
            Criteria .......................................................................................................... 1


Results
Finding – FAS Management Intervention ................................................................... 3
                 Oracle Contract Number GS-35F-0009T ................................................. 3
                 Carahsoft Contract Number GS-35F-0131R ........................................... 7
                 Deloitte Contract Number GS-35F-0060L ............................................. 10
            Adverse Effect on Morale............................................................................ 12
            FAS Procurement Management Review Reports Improper Management
              Intervention ............................................................................................ 13
            Recommendations ...................................................................................... 13
            Management Response .............................................................................. 14


Conclusion.............................................................................................................. 15

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Response ............................................................... B-1
Appendix C – Report Distribution ....................................................................... C-1




     A120161/Q/6/P13003                                               iii
Introduction
In the course of performing Multiple Award Schedule (MAS) contract audits, the Office
of Inspector General (OIG) identified numerous instances where Federal Acquisition
Service (FAS) management, based on complaints from contractors, overrode
contracting officer determinations without proper justification, pressured contracting
officers to extend or award contracts, and reassigned contracts to different contracting
officers.    These instances of FAS management intervention included direct
communications between contractors and FAS management, often without the
knowledge and participation of the responsible contracting officers. In at least one
case, FAS management interference resulted in a contract with higher prices and less
favorable terms than those recommended by the original contracting officers. In other
cases, interference resulted in questionable contract extensions. To more fully assess
the extent and possible impact of these cases on the integrity of the MAS contracting
process, we reviewed the circumstances related to some of these management
intervention actions.

This report focuses on three large MAS contracts representing over $900 million in
contract sales in calendar year 2011 (CY 2011):

   o Oracle America, Inc., (Oracle) Contract Number GS-35F-0009T for software
     products, software maintenance, and associated services. Total contract sales in
     CY 2011 were $358,408,767.

   o Carahsoft Technology Corporation (Carahsoft) Contract Number GS-35F-0131R
     for various information technology (IT) products and services. Total contract
     sales in CY 2011 were $432,024,376. Carahsoft currently represents 63 vendors
     under its MAS contract.

   o Deloitte Consulting LLP (Deloitte) Contract Number GS-35F-0060L for IT
     services. Total contract sales in CY 2011 were $119,520,662.

The objective of this audit was to review the circumstances related to FAS management
intervention in contracting actions related to MAS contracts.

See Appendix A – Purpose, Scope, and Methodology for additional details.

Criteria

The Federal Acquisition Regulation (FAR) Part 1 includes a “Statement of guiding
principles,” as well as the authorities and responsibilities of the contracting officer.

FAR 1.102-4(a) states:

      Government members of the [acquisition] Team must be empowered to
      make acquisition decisions within their areas of responsibility, including
      selection, negotiation, and administration of contracts consistent with the


A120161/Q/6/P13003                         1
       Guiding Principles. In particular, the contracting officer must have the
       authority to the maximum extent practicable and consistent with law, to
       determine the application of rules, regulations, and policies, on a specific
       contract.

In addition, the following FAR citations outline the authorities and responsibilities of the
contracting officer.

       No contract shall be entered into unless the contracting officer ensures
       that all requirements of law, executive orders, regulations, and all other
       applicable procedures, including clearances and approvals, have been
       met. [FAR 1.602-1(b)]

       Contracting officers are responsible for ensuring performance of all
       necessary actions for effective contracting, ensuring compliance with the
       terms of the contract, and safeguarding the interests of the United States
       in its contractual relationships. In order to perform these responsibilities,
       contracting officers should be allowed wide latitude to exercise business
       judgment. Contracting officers shall—

            (a) Ensure that the requirements of 1.602-1(b) have been met,
            and that sufficient funds are available for obligation;
            (b) Ensure that contractors receive impartial, fair, and equitable
            treatment; and
            (c) Request and consider the advice of specialists in audit, law,
            engineering, information security, transportation, and other
            fields, as appropriate. [FAR 1.602-2]

       Government business shall be conducted in a manner above reproach
       and, except as authorized by statute or regulation, with complete
       impartiality and with preferential treatment for none. Transactions relating
       to the expenditure of public funds require the highest degree of public trust
       and an impeccable standard of conduct. The general rule is to avoid
       strictly any conflict of interest or even the appearance of a conflict of
       interest in Government-contractor relationships. While many Federal laws
       and regulations place restrictions on the actions of Government personnel,
       their official conduct must, in addition, be such that they would have no
       reluctance to make a full public disclosure of their actions. [FAR 3.101-1]

The concentration of authority in the contracting officer is critical to maintain the integrity
of the contracting process. FAR 4.1 requires that, “Only contracting officers shall sign
contracts on behalf of the United States.” In addition to the FAR requirement of wide
latitude, contracting officers must also complete educational and training requirements
before being granted a contracting warrant. The FAR, therefore, vests significant
contracting authority and responsibility in the contracting officer and ensures that the
contracting process is independent from all impairments.



A120161/Q/6/P13003                            2
Results
Finding – FAS Management Intervention

FAS management 1 improperly intervened in the award and extension of MAS
contracts, three of which are highlighted in this report. This intervention resulted in
MAS contracts with inflated pricing and/or unfavorable contract terms and extensions
where contracting staff had determined such a decision was not in the best interests of
the United States. In addition, FAS management intervention undermined the authority
and morale of GSA contracting officers. FAS management (1) allowed contractors to
circumvent contracting officers when the contractors disagreed with contracting staff
determinations, and (2) supported the contractors’ positions, including reassigning
contracts to different contracting officers. In each reassignment case, the new
contracting officer awarded or extended contracts without properly addressing
significant issues identified by previous contracting officers.

Although we have noted instances of improper management interference across several
MAS Schedules, the three examples included in this report relate to FAS Schedule 70
Information Technology contracts. We will primarily focus on the actions of the Deputy
Director and a Division Director (directors) of the Schedule 70 program.

Oracle Contract Number GS-35F-0009T

FAS directors’ interference in the Oracle contract included undocumented discussions
with Oracle representatives without the knowledge or participation of contracting staff,
directives to the contracting officer to take actions contrary to the contracting officer’s
determinations, and reassignment of the contract to another contracting officer. The
evidence shows that Oracle officials went over the heads of the contracting staff to FAS
management to have contracting staff replaced and to obtain decisions favorable to the
company. This intervention usurped the contracting officer’s authority and resulted in
the extension of the contract with questionable pricing, terms, and conditions.

The Division Director twice intervened by directing the extension of the contract, despite
contracting officers’ determinations that extensions were not in the best interests of the
United States. The directors’ explanation for extending the contract was that the
volume of sales under Oracle’s contract demonstrated a need by federal agencies.
However, no examples were provided to demonstrate how government agencies would
be negatively impacted if the contract were allowed to expire.

Initially, the Oracle contract was to expire on September 30, 2011. However, in early
2011, two GSA contracting officers assigned to the Oracle contract noted significant
problems, and one of the contracting officers requested an audit by the OIG. In April
2011, the contracting staff informed FAS management of the problems with the Oracle
contract including inappropriate exceptions to GSA contract terms and conditions. In an

1
    For this report, FAS management refers to Central Office FAS officials.


A120161/Q/6/P13003                                    3
April 11, 2011, e-mail, the Division Director agreed that the issues regarding the
exceptions were “of particular importance if we are considering an Option.”

The OIG initiated an audit in April 2011 and on May 13, 2011, sent Oracle a data
request. By letter dated May 20, 2011, Oracle stated it would not provide the requested
information because it had not yet submitted an offer for the next contract option. On
May 31, 2011, Oracle requested a modification to withdraw all of its products from the
subject MAS contract. The modification was effective July 1, 2011. This action left only
consulting services on Oracle’s contract and eliminated over 60 percent of Oracle’s
reported contract sales, even though Oracle’s contract stated that the remaining
consulting services could only be sold in conjunction with (the removed) Oracle software
products. On June 6, 2011, the contracting officer sent Oracle a letter stating that the
company was required to comply with the OIG data request.

On June 29, 2011, the contracting officer sent a letter2 to Oracle stating that Oracle’s
contract would not be extended and would expire on September 30, 2011. In the same
letter, the contracting officer informed Oracle that many of its contract labor categories
appeared to be outside the scope of the schedule and that its labor rates were
“extremely high.”

On August 22, 2011, Oracle’s Senior Director of Government Affairs sent an e-mail to
the Associate Administrator for GSA’s Office of Governmentwide Policy that stated,
“Regarding GSA. We’re having a miserable time with our contracting officer on ge! tting
[sic] our schedule contract modified. How would we go about getting a new one?” The
GSA official asked Oracle if it was referring to a FAS contracting officer and Oracle
responded that it was. Oracle also provided the June 29 letter and stated, “We find it a
bit difficult when a CO is telling us which of our job titles do not qualify to be on a
schedule. Can fill you in on the rest.” On August 22, this e-mail chain was forwarded to
FAS management.

The directors stated that they had numerous discussions with Oracle officials about the
contract extension. However, the directors did not document these conversations and
could not recall many specifics. E-mails indicate that one such teleconference was held
on August 29, 2011. The contracting officer and contracting staff were not copied on
this email or present for the teleconference.

Interviews and e-mails show that, after they were contacted by Oracle officials, the
directors began questioning the contracting staff about the Oracle contract and the
contracting officer’s determinations. The contracting staff provided information to
support their determinations. However, on September 20, 2011, the contract was
reassigned to another contracting officer. The directors did not provide justification for
transferring the contract to another contracting officer. In addition, the contracting
officer who was replaced stated that the Division Director said, “Oracle is done with you
as a CO.”

2
 The OIG is not aware of any written response from Oracle to the GSA contracting officer regarding the
June 29 letter.


A120161/Q/6/P13003                                4
On September 21, 2011, the OIG participated in a teleconference with the contracting
staff and the directors. During the teleconference, the directors were informed of the
many problems with the Oracle contract, including that Oracle: (1) refused to provide
information requested by the OIG and the contracting staff, (2) had withdrawn all of its
products from the contract as of July 1, 2011, and (3) does not sell its consulting
services independent of its products. These issues were in addition to the concerns
raised by the previous contracting officer related to unacceptable contract terms, very
high labor rates, and labor categories not within the scope of the contract.

After this teleconference, the contracting staff told the OIG that the directors continued
to pressure them to award a contract extension to Oracle. On September 29, 2011, the
contracting staff informed the OIG that extending the contract for 6 months was not in
the best interests of the United States but that the Division Director instructed that the
contract be extended anyway. The contracting staff also notified the Division Director
that they would not sign a modification to extend the contract. The Division Director
instructed the contracting staff to prepare the modification and a determinations and
findings (D&F) 3 to support the directors’ decision to extend the contract. The Division
Director signed the D&F and instructed the contracting staff to execute 4 the contract
extension modification on September 30, 2011.

The directors ignored the concerns raised by the contracting staff. The directors stated
that the contract was extended to continue service for government customers, but failed
to explain how the extension continued service when Oracle had removed all of its
product offerings and could not sell services without software products. The stated
purpose of the extension was to allow time for Oracle to submit a new offer for
evaluation and potential award. The document further stated that Oracle will cooperate
with any requested OIG audit and that if the company failed to cooperate, the contract
would expire on March 28, 2012.

The September 29, 2011, D&F did not adequately support the extension of the contract.
For example, the D&F did not address the fact that Oracle removed all of its products
from the contract and these products accounted for over 60 percent of sales. Oracle’s
removal of these products significantly diminished the directors’ explanation that the
large contract sales volume justified the extension. Also, the D&F did not address how
Oracle would provide any services because its contract stated that services are only
provided in conjunction with product sales. Further, the D&F stated, “On 09-23-2011 &
09-29-2011 by e-mail, [Division Director] received correspondence from Oracle
indicating that Oracle would cooperate with a Pre Award and Post Award Audit."
However, the D&F did not indicate how or when this cooperation would occur or the fact
that Oracle had not yet provided data requested by the OIG in May 2011. Finally, the


3
  A D&F is required for special contracting situations such as sole source awards and temporary contract
extensions. This document is required to demonstrate that the special contracting action is in the best
interests of the Government.
4
  The Division Director stated that he could not execute the modification due to “technical issues” and
directed regional contracting staff to execute the modification on management’s behalf.


A120161/Q/6/P13003                                 5
D&F did not address contracting officer concerns involving excessive labor rates and
incorrect contract terms.

Problems with the Oracle contract continued during the extension. Oracle did not
submit a new offer in October 2011, as company officials had previously agreed. In
addition, Oracle failed to cooperate with the contracting staff and OIG to provide the
data previously requested. By e-mail dated January 24, 2012, the Division Director
informed the contracting staff that:

      There will be no direction coming from Crystal City regarding
      consideration of a subsequent Temporary Extension for this contract. This
      decision will need to come from you. You are the Branch Chief, and
      therefore, you will be making this decision. It seems probable that there
      may have to be another Temporary Extension, given that a new offer has
      not been received in our office to date.

Oracle submitted an offer on March 13, 2012. This offer was not significantly different
from Oracle’s existing contract and did not address the issues previously raised by the
contracting staff. In addition, Oracle failed to submit requested information to the OIG.

On March 23, 2012, the OIG informed the contracting staff that Oracle had not
addressed any of the previous contract problems and that Oracle, in fact, now had
additional problems. The new issues since the contract extension included Oracle’s
continued sales of its software products after July 1, 2011, failure to timely provide a
new offer, and refusal to provide previously requested records (resulting in the OIG
issuing a subpoena on February 2, 2012). On March 23, 2012, a member of the
contracting staff signed a D&F that concluded another extension of Oracle’s contract
was not in the best interests of the Government.

The directors again intervened despite the January 24, 2012, e-mail statement to the
contrary. The directors confirmed that they had conversations with Oracle officials in
March 2012, but again could not recall specific dates of the conversations or the details
of the discussions. On March 28, 2012, the Division Director instructed a contracting
officer in another region to extend Oracle’s contract. This contracting officer had no
experience with, or knowledge of, the Oracle contract, and executed this extension at
the Division Director’s instruction because the Division Director had informed the
contracting officer that technical issues prevented him from executing the modification.
The Division Director stated that he extended the contract to continue service to GSA
customers and because the previous contracting officer’s decision not to extend the
contract had left too little time to resolve all open issues before the contract was to
expire.

After the March 28, 2012, extension, the Division Director instructed the contracting
officer (from the other region) to prepare a D&F. This D&F was not prepared until 6
days after the modification to extend the contract was executed and was backdated to




A120161/Q/6/P13003                         6
March 28, 2012.      The D&F did not adequately support the extension by failing to
address:

   1.   Oracle's settlement of a False Claims Act case for $199.5 million;
   2.   Oracle's failure to submit a new proposal by the first week of October 2011;
   3.   The contracting officer's concerns about Oracle's existing contract; or
   4.   Oracle's failure to comply with requests for documents by the contracting officer
        and the OIG.

The Division Director acknowledged that the D&F was not prepared on March 28 but
could not explain why it was backdated.

After the second extension, FAS management decided that the Oracle contract should
be cancelled. On April 17, 2012, contracting staff issued a cancellation notice for
Oracle’s contract. In response to this cancellation notice, Oracle withdrew its offer for a
new contract. The contract cancellation date was June 8, 2012.

Carahsoft Contract Number GS-35F-0131R

FAS management intervention in the Carahsoft contract included undocumented
discussions with Carahsoft representatives without the knowledge or participation of
contracting staff, directives to the contracting officer to take actions contrary to the
contracting officer’s determinations, and reassignment of the contract to another
contracting officer. This intervention usurped contracting officer authority and resulted
in the lengthy extension of a contract with inflated pricing and other terms and
conditions unfavorable to the Government.

Carahsoft’s MAS Contract Number GS-35F-0131R was scheduled to expire on
November 18, 2009, but has been repeatedly extended on a temporary basis and is still
currently under temporary extension. The OIG conducted a preaward audit of
Carahsoft’s proposal for the execution of a 5-year option on its current contract. The
audit, issued March 10, 2011, identified that Carahsoft failed to grant GSA its best
pricing.

On February 15, 2011, Carahsoft submitted an offer for a new contract to replace its
current MAS contract (as opposed to extending the current contract). The contracting
officer requested supporting information for the new offer and attempted to address the
pricing issues raised by the preaward audit. Carahsoft officials failed to provide the
requested information but instead contacted FAS management directly. On March 30,
2011, the contracting officer sent an e-mail to the OIG that stated:

        The pressure is coming from my boss who has told me he doesn't want
        Carahsoft to call their Congressman. They have already called their
        Congressman before, so . . . my Division Director, said if we don't work
        with them (which means bend the rules that we have in place and make
        other vendors follow) that they will call the Congressman, and he doesn't



A120161/Q/6/P13003                          7
       want that. I just feel stuck between a rock and a hard place. I don't feel
       like Carahsoft wants to negotiate . . . they want to dictate. When I try to
       negotiate, or ask for information, they don't want to provide it, and [the
       Division Director] has told me they are going to call their Congressman,
       and it will come right back down to [their] or my lap to fix.

On April 6, 2011, the Inspector General informed the GSA Administrator, Deputy
Administrator, and FAS Commissioner of the pressure that Carahsoft was exerting and
stated:

       I am alerting you to this situation because it has serious implications for
       the contracting process. I know that you are firmly committed to
       acquisition integrity, and to ensuring that GSA fulfills its role as the premier
       procurement agency for the United States. Accordingly, I am calling this
       matter to your attention to ensure that no inappropriate pressure affects
       the process and that Carahsoft does not receive more favorable treatment
       than other similarly situated contractors.

However, the Division Director continued his pattern of intervention. On April 11, 2011,
the Division Director provided Carahsoft officials incorrect information that contradicted
some of the contracting officer’s requests for information. For example, the contracting
officer requested information from Carahsoft regarding sales practices for Carahsoft
manufacturers and requested that the company remove the term “commercial end
users” from its information because it does not sell to commercial customers. Carahsoft
contacted the Division Director and in an April 11, 2011, response, the Division Director
wrote, “I received a call from [Carahsoft] regarding the Carasoft [sic] clarification letter.
[Carahsoft] stated that there were five issues of concern. I have addressed each.” The
Division Director then proceeded to directly address Carahsoft’s concerns rather than
instruct Carahsoft to comply with the contracting officer’s instructions. The Division
Director’s response to Carahsoft sometimes contradicted the contracting officer, even
though the Division Director did not have the full background regarding the negotiations.
After reviewing the Division Director’s e-mail to Carahsoft, the contracting officer wrote,
“I have a reason for all of the guidance I have provided to Carahsoft, and it’s based on
my extensive knowledge of their current contract and all that I have been through with
this company.” In two separate e-mails to the Division Director on April 12, 2011, the
contracting officer requested:

       In the future, will you please send [Carahsoft representatives] to me, and
       not answer their questions?

       Carahsoft wants us to make allowances for them. When I don't make
       allowances, they come to you…. If they don’t get their way, they get upset
       – they run to you and it’s become a pattern…and it’s causing my authority
       as a CO to be circumvented…it looks as if they are succeeding at “dividing
       and conquering”.




A120161/Q/6/P13003                            8
On April 12, 2011, the Division Director told the contracting officer:

       This is getting ridiculous. . . As a manager, it is your job to keep
       issues/problems self-contained and not have them constantly rise to my
       level. . . However, you need to take into consideration that Carasoft [sic] is
       not the average offer in-house. There is considerable industry influence
       when it comes to them, and quite frankly, I do not think that you realize
       that when their issues/problems rise to the Division/Center level and have
       to be explained.

The directors continued to directly speak with Carahsoft representatives. On July 27,
2011, the Division Director wrote to the contracting officer stating, “I know you are owed
a response from Carahsoft by tomorrow. Whether it is the response you are requesting
or not, under no circumstances will the offer be rejected at this time.” On August 24,
2011, in response to Carahsoft discussions with the directors, the Division Director
transferred the Carahsoft contract to another contracting officer.

The new contract specialist encountered the same problems with Carahsoft as those
encountered by the previous contracting officer. On October 4, 2011, the contract
specialist told the directors:

       The vendor's strong sales performance is a factor to contend with, but I
       am beginning to feel that [Carahsoft's] demands for special treatment of
       [this] company's offer are bordering on unethical because we are expected
       to circumvent the solicitation requirements such as TAA compliance and
       accurate representation of a vendor's sales practices. Until [Carahsoft] is
       ready to have an adult, 2-way communication about [this] company's offer
       with me, instead of acting like a spoiled child, my efforts to bring this case
       to closure will be futile.

On November 3, 2011, the contract specialist wrote:

       [T]here had been too many concessions given to this vendor even before
       the offer and the contract were assigned to me, so the vendor is
       emboldened to the point that he feels that it’s either his way or the
       highway, regardless of what the data may indicate. Please let me know if
       the plan is to reject this offer in ORS, or if it is going to be transferred to
       another CO/CS. I also would like to request that the contract is also
       transferred to another CO/CS because any goodwill that I had left for the
       relationship with Carahsoft had been exhausted.




A120161/Q/6/P13003                           9
On November 4, 2011, the contract specialist reiterated, “The offer cycle time 5
continues to accrue on my account, and there is nothing further I can contribute to this
case, therefore this offer needs to either be transferred to someone else or rejected.”

However, on December 19, 2011, the contract specialist accepted Carahsoft’s offer and
awarded Carahsoft Contract Number GS-35F-0119Y. The contract specialist stated
that the offer was accepted because the company agreed to change the basis of award
customer. The contract specialist did not provide any further explanation of the change
in position.

On December 22, 2011, the contracting specialist emailed Carahsoft with the following
request:

       If you don't mind, could you please send a note to IT70 management to let
       them know you were pleased with my handling of your firm's offer? That
       would be really appreciated.

       My workload keeps growing and I've been asking for a contracting officer
       warrant for a while now because it would help me process contract actions
       faster. Your positive feedback on my performance would help speed up
       the process.

A Carahsoft official replied, “I would be glad to.”

In January 2012, the contract specialist 6 received an unlimited contracting officer
warrant.

Deloitte Contract Number GS-35F-0060L

FAS management intervention in the Deloitte contracts included undocumented director
discussions with Deloitte representatives without the knowledge or participation of
contracting staff, directives to the contracting officer to take actions contrary to the
contracting officer’s determinations, and reassignment of the contract to another
contracting officer. This intervention usurped contracting officer authority and resulted
in the award of a contract with inflated pricing and other terms and conditions
unfavorable to the Government.

Deloitte Contract Number GS-35F-0060L was set to expire on November 5, 2010. Due
to concerns about the contract the contracting officer requested an OIG audit of Deloitte


5
  Offer cycle time represents the period from offer receipt to contract award. Offer cycle time is a
performance metric and is one of several factors considered during a contracting officer’s performance
evaluation.
6
  As of April 11, 2011, the contract specialist met education, training, and experience requirements to
achieve a certified Federal Acquisition Certification in Contracting (FAC-C) Level III. GSA requires a
Level III certification to obtain an unlimited warrant.


A120161/Q/6/P13003                                10
on October 14, 2010. The contract was temporarily extended several times and
ultimately expired on October 23, 2012.

Deloitte submitted an offer for a new contract on September 26, 2011. Deloitte officials
were dissatisfied with the negotiations of its offer for a new contract and with
restrictions 7 placed on its existing contract. In addition, Deloitte objected to providing
information relating to specific customers. On May 29, 2012, Deloitte officials met with
FAS management to express the company’s concerns. On June 8, 2012, a meeting
was held with contracting officials, OIG audit staff, and Deloitte officials. During this
meeting, Deloitte requested the contracting officer remove the restrictions on its existing
contract; however, the contracting officer declined the request. On June 12, 2012, the
Division Director instructed the contracting staff to transfer Deloitte’s contract and offer
to FAS Central Office so that these could be managed “closer to DC.” On June 18,
2012, the Division Director assigned the Deloitte contract and offer to the same
contracting official to whom the Carahsoft contract had been transferred.

In response to an OIG inquiry relating to why the contract was transferred, the Division
Director wrote in a June 13, 2012, e-mail:

     In summation, the transfer of the contract and offer has no bearing on the
     Contracting Officer or Branch Chief whatsoever. As mentioned, a number
     of factors were taken into consideration regarding the transfer; however,
     the overarching priority is to ensure that, as we move forward, there is an
     equitable distribution of workload Center-wide.

The contracting officer who received the Deloitte offer wrote an e-mail dated June 18,
2012, “Is this another one like Carahsoft?” The supervisor responded, “Yes. There are
issues and it needed to be assigned to someone else.”

In interviews, the directors continued to assert that the transfer was made for workload
management issues. However, upon questioning, the directors confirmed that no other
contracts were transferred and that no workload management study existed that
recommended the transfer of this particular contract. The contracting officer who
received the Deloitte contract told the OIG that their supervisor had to reassign several
of their current contracts because the contracting officer was already over-obligated.
Eventually, the Division Director acknowledged that the Deloitte contract was not
transferred due to workload management issues.

On July 19, 2012, the new contracting officer executed a modification to extend
Deloitte’s contract. This modification also eliminated the requirement for Deloitte to
remove all BPAs under the contract within 90 days. The new contracting officer
awarded Contract Number GS-35F-0617Y to Deloitte on September 7, 2012. The new
contract had higher labor rates than the rates Deloitte previously offered to the prior
contracting officer.

7
 These conditions required Deloitte to (1) transition all blanket purchase agreements (BPAs) off of the
contract before the new expiration date, and (2) not award any additional BPAs under the contract.


A120161/Q/6/P13003                                11
The labor rates previously offered and subsequently awarded differed as follows:

                               Labor category             Increase
                              Principal/Director            14.4%
                              Senior Manager                7.8%
                              Manager                       15.4%
                              Senior Consultant             18.5%
                              Consultant                    5.6%
                              Analyst                       11.4%

When asked by the OIG why the awarded labor rates were higher, the contracting
officer had no support or explanation. In addition, when the OIG asked why some
standard GSA contract language was changed in Deloitte’s contract, the contracting
officer stated that Deloitte would not agree to a contract without the revised language.

The contracting officer presented the OIG concerns regarding contract language to
Deloitte officials. By contract modification dated December 5, 2012, Deloitte and the
contracting officer agreed to change the contract to eliminate the unacceptable
language. To date, there has been no change in Deloitte’s contract labor rates.

As a result of the Division Director’s directed transfer of this contract, the contract award
was made at prices and terms less favorable to the Government than those offered to
the previous contracting officer. The previous contracting officer’s concerns were not
addressed by the new contracting officer and the awarded pricing and terms did not fully
protect the Government’s interests.


Adverse Effect on Morale

FAS management’s interventions in MAS contracts have an adverse effect on
contracting officer morale, such as:

    ·   A contracting official involved with both the Oracle and Deloitte contracts suffered
        a decrease in performance rating from a 5 in 2010, to a 4 in 2011, to a 3 in
        2012. 8 The narrative of this employee’s rating in 2012 was transcribed almost
        verbatim from the narrative for 2011 and, thus, did not support a decrease in
        rating from a 4 to a 3. When a FAS senior executive was made aware of this
        rating, FAS directors changed the rating to a 4.

    ·   Several contracting staff stated that they feared for their jobs because they were
        trying to do the right thing and protect the taxpayers’ interests. One employee
        working on a contract where FAS management intervened on behalf of a
        contractor stated, “This is one of those situations that can be career altering.”

8
  The rating scale: 5 – consistently exceeds expectations; 4- often exceeds expectations; 3 – meets
expectations; 2- partially meets expectations; 1 – does not meet expectations.


A120161/Q/6/P13003                              12
   ·   Contracting staff emails support that staff were unhappy with management’s
       interventions and also indicated that the contracting staff preferred to have
       contracts taken from them rather than compromise government requirements.

   ·   In numerous discussions between FAS contracting staff and the OIG, FAS
       contracting staff have stated that GSA contractors know they can get whatever
       they want by going to FAS management. FAS contracting staff have further
       stated that they believe they have to award large contracts because the contracts
       generate a lot of revenue and management will not allow the contracts to expire
       or be cancelled.


FAS Procurement         Management       Review     Reports     Improper       Management
Intervention

The findings in this report are supported by an internal GSA acquisition review
performed by the Office of Governmentwide Policy, known as a procurement
management review (PMR). During our review, we obtained a copy of a PMR that
identified significant and similar problems in the FAS MAS IT 70 program. In a PMR
report dated July 26, 2012, PMR interviews with IT 70 staff revealed that FAS
management “frequently overrules” contracting officers’ determinations and assessed
the impact of this finding:

          This results in a lack of alignment of authority with
          accountability. Such lack of alignment can result in poor
          morale, poor performance by acquisition personnel, and
          individual contracting actions that do not reflect the values and
          commitments of regional management…

          After 4 straight years of reviewing this office, with little to no
          change, the IT Center may not be committed to making the
          necessary changes to achieve acquisition excellence.


Recommendations

The Commissioner, Federal Acquisition Service, should:

   1. Ensure that the contracting process is independent and free from FAS
      management interference due to contractor pressure. These steps should
      include:

       a. Requiring FAS management not to intervene in contracting actions in
          response to requests from contractors except for instances of misconduct or
          other serious administrative issues;




A120161/Q/6/P13003                          13
      b. Requiring FAS management to fully document all conversations and
         correspondence with contractor officials regarding specific contracts and
         offers, to include such information as date, time, participants, and specific
         details of information exchanged; and

      c. Issuing a memorandum expressing support for contracting staff making
         independent determinations, including decisions to not award contracts or
         contract extensions.

   2. Take appropriate action to either renegotiate or cancel the Carahsoft and Deloitte
      contracts.

   3. Take appropriate administrative action to address the FAS management and
      contracting staff conduct identified in this report.


Management Response

The FAS Commissioner’s response to the report noted that the Commissioner was very
concerned with the report findings and that actions are already underway to address the
report recommendations. Management’s comments are included in their entirety as
Appendix B.




A120161/Q/6/P13003                        14
Conclusion
FAS management improper intervention in the award and extension of MAS contracts
resulted in contracts with inflated pricing and/or unfavorable contract terms and
extensions where contracting staff had determined such a decision was not in the best
interests of the United States. By allowing contractors to circumvent contracting officers
and supporting the contractors’ positions, including reassigning contracts to different
contracting officers, FAS management undermined the integrity of the procurement
process. FAS management actions also compromised the authority of contracting
officers and adversely affected morale. An FAS procurement management review also
supports these findings.




A120161/Q/6/P13003                         15
Appendix A – Purpose, Scope, and Methodology
Purpose

We initiated this audit because we identified instances of FAS management intervention
in the award of MAS contracts and contract extensions.

Scope

To accomplish the audit objective, we reviewed specific contracting actions (both new
awards and extensions) that included some large Schedule 70 Information Technology
contracts. These contracting actions generally included contracts that were either
audited by the OIG or has some type of OIG involvement.

The objective of this audit was to review the circumstances related to FAS management
intervention in contracting actions related to MAS contracts.

Methodology

To accomplish our objective, we:

   ·   Reviewed relevant criteria, including the Federal Acquisition Regulation and
       internal FAS guidance;
   ·   Reviewed contract file documentation;
   ·   Interviewed contracting staff and FAS management representatives;
   ·   Reviewed contracting staff and FAS management emails pertaining to the
       subject contracts;
   ·   Developed timelines associated with each contract; and
   ·   Incorporated the results of contract audits associated with the subject
       contractors.

We conducted the audit between July 2012 and February 2013 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

The scope of our work was limited to addressing the objective of this audit. Thus, our
assessment and evaluation of internal controls was restricted to those issues identified
in the Results section of this report.




A120161/Q/6/P13003                        A-1
Appendix B – Management Response




A120161/Q/6/P13003       B-1
Appendix B – Management Response (cont’d)




A120161/Q/6/P13003        B-2
Appendix B – Management Response (cont’d)




A120161/Q/6/P13003        B-3
Appendix B – Management Response (cont’d)




A120161/Q/6/P13003        B-4
Appendix C – Report Distribution
Acting Administrator (A)

FAS Commissioner (Q)

Acting FAS Deputy Commissioner (Q1)

Assistant Commissioner for Integrated Technology Services (QT)

Acting Director of IT Schedule Program (QTF)

FAS Chief of Staff (Q0A)

FAS Controller (BF)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison (QB0A)

Audit Liaison (QB0AB)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120161/Q/6/P13003                        C-1
